<html>
<title> - HEARING WITH TREASURY SECRETARY STEVEN T. MNUCHIN -- THE TRUMP ADMINISTRATION'S RESPONSE TO THE ECONOMIC CRISIS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                    HEARING WITH TREASURY SECRETARY
                            STEVEN T. MNUCHIN _
                  THE TRUMP ADMINISTRATION'S RESPONSE
                         TO THE ECONOMIC CRISIS

=======================================================================

                                HEARING

                               BEFORE THE

             SELECT SUBCOMMITTEE ON THE CORONAVIRUS CRISIS

                                 OF THE

                   COMMITTEE ON OVERSIGHT AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 1, 2020

                               __________

                           Serial No. 116-114

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


                       Available on: govinfo.gov,
                         oversight.house.gov or
                             docs.house.gov
                             
                             
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
41-939 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
                             
                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   James Comer, Kentucky, Ranking 
    Columbia                             Minority Member
Wm. Lacy Clay, Missouri              Jim Jordan, Ohio
Stephen F. Lynch, Massachusetts      Paul A. Gosar, Arizona
Jim Cooper, Tennessee                Virginia Foxx, North Carolina
Gerald E. Connolly, Virginia         Thomas Massie, Kentucky
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             Gary Palmer, Alabama
Ro Khanna, California                Michael Cloud, Texas
Kweisi Mfume, Maryland               Bob Gibbs, Ohio
Debbie Wasserman Schultz, Florida    Clay Higgins, Louisiana
John P. Sarbanes, Maryland           Ralph Norman, South Carolina
Peter Welch, Vermont                 Chip Roy, Texas
Jackie Speier, California            Carol D. Miller, West Virginia
Robin L. Kelly, Illinois             Mark E. Green, Tennessee
Mark DeSaulnier, California          Kelly Armstrong, North Dakota
Brenda L. Lawrence, Michigan         W. Gregory Steube, Florida
Stacey E. Plaskett, Virgin Islands   Fred Keller, Pennsylvania
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan
Katie Porter, California

           David Hickton, Select Subcommittee Staff Director
                       Russ Anello, Chief Counsel
                         Senam Okpattah, Clerk

                      Contact Number: 202-225-5051

               Christopher Hixon, Minority Staff Director
                               
                               ------                                

             Select Subcommittee On The Coronavirus Crisis

               James E. Clyburn, South Carolina, Chairman
Maxine Waters, California            Steve Scalise, Louisiana, Ranking 
Carolyn B. Maloney, New York             Minority Member
Nydia M. Velazquez, New York         Jim Jordan, Ohio
Bill Foster, Illinois                Blaine Luetkemeyer, Missouri
Jamie Raskin, Maryland               Jackie Walorski, Indiana
Andy Kim, New Jersey                 Mark E. Green, Tennessee
                         
                         
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on September 1, 2020................................     1

                               Witnesses

Steven T. Mnuchin, Secretary, Department of the Treasury
Oral Statement...................................................     6

The written statement of the witness, and written opening 
  statements by Members, are available in the U.S. House of 
  Representatives Document Repository at: docs.house.gov.

                           Index of Documents

                              ----------                              

  * Report regarding Review of the Paycheck Protection Program, 
  Economic Policy Institute; submitted by Rep. Jordan.

  * Article regarding Loss of Employer-sponsored Health 
  Insurance; submitted by Rep. Kim.

  * Article regarding Unemployment Insurance; submitted by 
  Chairman Clyburn.

  * Article regarding Covid-19 Layoffs Make Job Reductions 
  Permanent, Wall Street Journal; submitted by Rep. Kim.

  * Article, "With Second Stimulus Checks on Hold, Americans 
  Spend Less at the Grocery Store,'' Wall Street Journal; 
  submitted by Rep. Foster.

Documents entered into the record during this hearing and 
  Questions for the Record (QFR's) are available in the U.S. 
  House of Representatives Document Repository at: 
  docs.house.gov.

 
                    HEARING WITH TREASURY SECRETARY
                          STEVEN T. MNUCHIN --
                  THE TRUMP ADMINISTRATION'S RESPONSE
                         TO THE ECONOMIC CRISIS

                              ----------                              


                       Tuesday, September 1, 2020

                   House of Representatives
      Select Subcommittee on the Coronavirus Crisis
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 1:01 p.m., in 
room 2154, Rayburn House Office Building, Hon. James E. Clyburn 
(chairman of the subcommittee) presiding.
    Present: Representatives Clyburn, Waters, Velazquez, 
Foster, Raskin, Kim, Jordan, and Luetkemeyer.
    Chairman Clyburn. Welcome, everybody. Today, the Select 
Subcommittee is holding a hybrid hearing where some members 
will appear in person, and others may appear remotely via 
Webex. Since members are appearing in person, let me first 
remind everyone that pursuant to the latest guidance from the 
House Attending Physician, all individuals attending this 
hearing in person must wear a face covering. Members who are 
not wearing a face covering are not permitted to remain in the 
hearing room, and will not be recognized to speak.
    Let me also make a few reminders about hybrid hearings. For 
those members appearing in person who will be able to see 
members appear remotely on the two monitors in front of you. On 
one monitor, you will see all the members appearing remotely at 
once, in what is known in Webex as grid view mode. On the other 
monitor, you will see each person speaking during the hearing 
when they are speaking, including members who are appearing 
remotely. For those members appearing remotely, you can also 
see each other, each person speaking during the hearing, 
whether they are in person or remote if you have your Webex set 
to active speaker mode. If you have any questions about this, 
please contact committee staff immediately.
    Let me also remind everyone of the House procedures that 
apply to hybrid hearings. For members appearing in person, a 
timer is visible in the room directly in front of you. For 
those who may be remote, we have a timer that should be visible 
on your screen when you are in the active speaker with 
thumbnail mode, and you have the timer pinned.
    For members who may be appearing remotely, a few other 
reminders. The House rules require that we see you, so please 
have your cameras turned on at all times, not just when you are 
speaking. Members who are not recognized will remain muted to 
minimize background noise and feedback. I will recognize 
members verbally, and members retain the right to seek 
recognition verbally.
    In regular order, members will be recognized in seniority 
order for questions. If you are remote and want to be 
recognized outside of regular order, you may identify that in 
several ways: You may use the chat function to send a request; 
you may send an email to the majority staff; or you may unmute 
your mic to seek recognition.
    Obviously, we do not want people talking over each other, 
so my preference is that members use the chat function or email 
to facilitate formal verbal recognition. Committee staff will 
ensure that I am made aware of the request, and I will 
recognize you. We will begin the hearing in just a moment when 
they tell me they are ready to begin the live stream.
    Good afternoon. The committee will come to order. Without 
objection, the chair is authorized to declare a recess of the 
committee at any time. I now recognize myself for an opening 
statement.
    Today, the Select Subcommittee welcomes Secretary of the 
Treasury, Steven Mnuchin. This is the first time Secretary 
Mnuchin has testified before the subcommittee, and I thank him 
for his appearance here today. On July 29, the Federal Reserve 
wrote, and I quote, ``The path of the economy will depend 
significantly on the course of the virus.'' Federal Reserve 
Chairman Jerome Powell, who was appointed by President Trump, 
emphasized this point, saying, ``It's so fundamental, I think 
we can't say it enough.''
    Tragically, seven months since the first case was 
discovered on our shores, the course of this coronavirus 
continues to be devastating. Nearly 6 million Americans have 
tested positive, and more than 182,000 Americans have died, far 
more than any other Nation on earth. This summer, while most of 
other countries were successfully containing the virus, the 
United States saw a surge in cases and three deaths, and we 
know why. Instead of leading with a national strategy, the 
White House pushed states to reopen without a plan to keep 
people safe.
    Instead of communicating science-based public health 
guidance, the President claimed the virus would, and I quote 
here, ``sort of just disappear, I hope.'' These failures are 
costing hundreds of Americans' lives every day. Just as the 
Federal Reserve described it, the failure to address America's 
health crisis has also caused an unprecedented economic crisis 
that has left many Americans out of work, and struggling to 
feed their families and pay housing costs.
    The most recent data showed the unemployment rate was 10.2 
percent at the end of July, higher than the worst month of the 
Great Recession and its aftermath. As of August 1, 29 million 
Americans were receiving, or waiting for unemployment benefits. 
Unemployment claims are more than 10 times higher than they 
were at the beginning of the year and show little sign of 
returning to normal levels any time soon.
    Of course, some jobs lost at the beginning of the pandemic 
have returned, as certain businesses have reopened. That is a 
good thing. The administration has claimed this positive 
rebound means we are guaranteed a V-shaped economic recovery, 
where the economy returns to full strength quickly, but the 
evidence does not bear that out.
    We continue to see, roughly, 1 million Americans file new 
unemployment claims every week, a clear sign that the economy 
remains in serious trouble. And rather than a V-shaped 
recovery, economists have warned, we face an uneven K-shaped 
recovery where the wealthy quickly bounce back to pre-pandemic 
prosperity while lower income families continue to suffer 
economic harm.
    In July, former Fed Chairs Ben Bernanke and Janet Yellen 
testified before this subcommittee. Quoting from their joint 
written statement, ``Lower paid workers, as well as women and 
minorities, are over-represented in the most affected sectors, 
and, thus, have borne a disproportionate share of the job and 
income losses,'' end of quote.
    Today's hearing is a call to action. The most important 
step we can take to fix the economy in the long term is to get 
the pandemic under control. But American families are hurting 
now, and there are urgent steps the administration must take to 
prevent our Nation's economic crisis from becoming a 
catastrophe.
    First, additional fiscal stimulus is urgently needed. Many 
of the safety nets Congress established in the CARES Act have 
expired, and millions of Americans are now facing eviction, 
debt, and hunger. As the pandemic drags on, states, cities, and 
businesses, are warning that more layoffs may be coming.
    On May 15, more than three months ago, House Democrats 
passed a comprehensive bill to address these problems. The 
HEROES Act would extend $600 weekly unemployment benefits, help 
families with food and housing assistance, and support state 
and local governments and the millions of essential workers 
they employ. Republicans rejected the bill. When the House 
offered to meet them in the middle with a compromise proposal, 
Republicans rejected that, too.
    Instead, the President offered a fake solution, executive 
orders, that give the appearance of action, but were clearly 
insufficient to address the economic peril Americans face.
    Secretary Mnuchin, I hope you will return to the 
negotiating table prepared to find common cause on legislation 
that meets the pressing needs of America's families and 
communities that are hurting from this crisis.
    Second, the Treasury Department must improve its 
implementation of relief programs passed by Congress. So far, 
the administration has prioritized big businesses over small 
businesses and the American workers that Congress intended to 
protect. The administration needs to refocus the Paycheck 
Protection Program, payroll support for the airline industry 
and other relief programs, to ensure that they are preserving 
jobs, not lining the pockets of wealthy executives.
    Third, Treasury must improve oversight and accountability 
to ensure that taxpayers' dollars are not squandered. Today, 
the Select Committee is releasing a staff report raising 
serious concerns about potential waste, fraud, and abuse, in 
the Paycheck Protection Program. Based on an analysis of the 
Treasury data, the subcommittee identified more than 10,000 
loans to companies that received multiple PPP loans, a 
violation of the program's terms. Thousands of other loans were 
awarded to companies that were ineligible for the program or 
had red flags indicating potential fraud.
    Secretary Mnuchin, I think you had previously testified 
that given the need to get relief money out quickly, it was 
inevitable that Treasury, and I quote, ``ran into a lot of 
issues,'' end of quote. That is a false dichotomy. Taxpayers 
should not have to choose between quickly getting aid to those 
who need it, and wasting Federal funds, and there are simple 
steps that could have been taken to improve oversight and 
reduce fraud.
    Our report makes recommendations for steps that Treasury 
can still take to safeguard taxpayer money, including improving 
the agency's weak audit plan for PPP.
    As I have said before, the purpose of our oversight is not 
to cast blame for past failures, but to make improvements to 
ensure future success. I hope this hearing will be an 
opportunity for Democrats and Republicans to come together to 
acknowledge the serious problems Americans face, and identify 
real solutions. Thank you.
    And in the ranking member's absence, I now yield to Mr. 
Jordan or a Republican member he may designate for an opening 
statement. Mr. Jordan, I think you may need to unmute. We see 
you, but we can't hear you. Please unmute.
    Mr. Jordan. I thought I had it unmuted.
    Chairman Clyburn. OK.
    Mr. Jordan. Thank you, Mr. Chairman. I--I was unmuted, but 
I don't know how it got muted back, but it's good to be with 
you.
    Mr. Secretary, thank you for--thank you for joining us. 
It's unfortunate that the chairman criticized your work in this 
unprecedented time we find ourselves. $3 trillion package that 
Congress put together with your leadership, President Trump's 
leadership, $500 million total in the PPP program, 5 million 
loans you made to help 85 percent of the small businesses 
around this country, 51 million jobs, and you come here, and 
you get criticized by this chairman.
    I want to thank you for the great work that you have done. 
It's unfortunate that the chairman didn't take into account the 
fact that the ranking member was not going to be available for 
today's hearing. We appreciate the fact, Mr. Secretary, that 
you're here and you're willing to provide testimony, again, 
about the Treasury's extraordinary response to the virus and 
what this virus did to our economy.
    The Trump administration's work combating this virus and 
this crisis is unprecedented. From the beginning, Speaker 
Pelosi and the Democrats stood in the way of the President. The 
congressional Democrats were focused on their impeachment sham. 
The President was starting a task force to combat the virus.
    When the Speaker said San Francisco is fine, the President 
was blocking travel from China. When Mayor de Blasio and New 
Yorkers said, quote, Go about your lives, the President was 
starting research on a vaccine. And while Vice President Biden 
has been locked in his basement, the President built the 
world's leading testing system from scratch.
    We heard just the other week from Dr. Fauci himself about 
how the President's actions saved lives. We've heard a lot 
about science and following the recommendations of the CDC and 
the guidelines that they put forward. It would have been nice 
if the state of New York had done the same, where for 46 days, 
Governor Cuomo sent COVID positive patients back into nursing 
homes and resulting in all kinds of tragedy for the individuals 
and families of those folks who live in those facilities.
    When the economy shut down, it was tough. It was difficult. 
People couldn't operate their business. People couldn't go to 
church. People couldn't go to school. The President knew help 
was required, and in just 10 days, again, working with you, Mr. 
Secretary, Congress passed the largest spending relief bill in 
the history of the country. In that legislation was the 
Paycheck Protection Program, which extends, as I said, 5 
million loans through 6,000 vendors totaling over $5 billion, 
direct help to small business owners and families and 
individuals across this great country. And due to your hard 
work and the administration, the PPP was stood up in just hours 
and ran out of money in less than two weeks.
    The President and congressional Republicans went to Speaker 
Pelosi to ask for money, but she wanted to bail out Democrat-
run cities instead of helping small businesses. Leader 
McConnell had a bill. It didn't get a vote, not until June when 
an oversight colleague, Mr. Roy, introduced a bill that would 
replenish the funds and make it even more helpful to businesses 
on the ground. The PPP stood empty because of the Beltway gains 
from the Democrats. But the PPP program which supported 51 
million jobs and 85 percent of the small businesses in America, 
how many more faltered while the Democrats held the additional 
support hostage?
    Fifteen days after the CARES Act, Treasury began 
distributing checks, direct checks to individuals and families. 
A few months later, you had successfully distributed 120 
million checks by direct deposit, 35 million paper checks, and 
4 million prepaid debit cards, for a total of almost $270 
billion. Again, unprecedented.
    Next, you successfully implemented the payroll support 
program, $32 billion in loans direct to the airline industry in 
support of hundreds of thousands of jobs. Amazingly, the 
application for this program was ready in a matter of hours. 
Again, unprecedented.
    Finally, you directed $150 billion straight to the states 
and localities. By July, Treasury had obligated all of this 
money, but much of it, much of it still remains unspent by the 
states. New York state has only spent 53 percent, but Governor 
Cuomo asked for more. Michigan has only spent eight percent, 
but Governor Whitmer asked for more. The Speaker continues to 
say states don't have the money, but they do. Every single 
state has money available to them because of the Trump 
administration.
    Now, it's not to say everything was perfect, but we need to 
remember it's the Federal Government. And the quick response 
that we were trying to get and actually did achieve, there's 
going to be a few mistakes when you do that. When you approve 
$3 trillion and expect the Federal Government to get it out the 
door and to people in a matter of days, of course, there may be 
a few mistakes. What should be commended, though, as I've said 
already, is the hard work done to correct those mistakes. These 
programs save, and continue to save jobs.
    Eventually, though, the best way to estimate an economy, 
the absolute best way to stimulate and grow our economy, is to 
let people go back to work. And when it was time, the President 
led the charge to reopen the country, get Americans back to 
work, and get our kids back to school. We are seeing a steady 
decrease in unemployment, a steady increase in jobs. The 
President built the greatest economy in the world once before, 
and I know we can do it again.
    Mr. Secretary, again, thank you, and I look forward to 
asking questions, and Mr. Chairman, I yield back. Oh. I do ask 
this, Mr. Chairman. I'd ask unanimous consent that we enter the 
Republican report on the Paycheck Protection Program, which as 
I said, supported 51 million jobs and 85 percent of the small 
businesses out there across the country. So I'd ask unanimous 
consent that that be made part of the record.
    Chairman Clyburn. Without objections, it will be done. 
Thank you, Mr. Jordan.
    Chairman Clyburn. Allow me to introduce our witness. Today, 
the Select Committee is pleased to welcome the Honorable Steven 
T. Mnuchin, Secretary of the Treasury. Thank you, Mr. 
Secretary, for being here today. Will you please stand so I may 
swear you in? Please raise your right hand. Do you swear or 
affirm that the testimony you are about to give is the truth, 
the whole truth, and nothing but the truth, so help you God?
    Secretary Mnuchin. I do.
    Chairman Clyburn. You may be seated.
    Please let the record show that the witnessed answered in 
the affirmative. Without objection, your written statement will 
be made part of the record. Secretary Mnuchin, you are now 
recognized for your opening statement.

 STATEMENT OF HON. STEVEN T. MNUCHIN, SECRETARY, DEPARTMENT OF 
                          THE TREASURY

    Secretary Mnuchin. Chairman Clyburn, members of the 
subcommittee, I'm pleased to join you here today to discuss the 
Department of the Treasury's response to COVID-19 pandemic. For 
the last five months, Treasury has been working hard to provide 
fast and direct economic assistance to American workers and 
their families. We remain committed to making sure that every 
American gets back to work as quickly as possible.
    The bipartisan CARES Act is the biggest economic relief 
package in American history. Economic relief totaling nearly $3 
trillion, which is approximately 15 percent of GDP, is having a 
tremendous impact on the economy leading to increases in jobs, 
retail sales, business activity, and home sales. I also want to 
thank Chairman Powell and the Federal Reserve for its 
substantial work executing 13 unique 13(3) lending facilities.
    For the third month in a row, the jobs report exceeded 
forecasts with a gain of 1.8 million jobs in July. This brings 
the three-month total to more than 9 million jobs, meaning over 
40 percent of jobs due that were lost have been recovered. The 
job openings and labor turnover survey suggest the job market 
has continued to strengthen, with the ratio of unemployed 
persons to job openings dropping by nearly one fourth in June.
    We also see signs of strengthening economic recovery across 
industries. Retail sales increased in July for the third 
consecutive month, signaling consumer spending on goods has 
recovered. The ISM manufacturing survey indicated growth for 
the second consecutive month, both satisfying increased 
business activities. The housing market has nearly returned to 
pre-pandemic levels fueled by strong housing starts, and 
existing home sales in July. Leisure and hospitality firms, 
among the businesses hardest hit by the pandemic, hired 592,000 
workers in July, indicating confidence in the economy 
reopening.
    While we continue to see signs of a strong economic 
recovery, we are sensitive to the fact there is more work to be 
done, and certain areas of the economy require additional 
relief. When it became clear that previous negotiations were 
not moving forward, the President took executive action to 
provide critical relief to Americans through lost wages 
assistance and other important items. We will continue to work 
with the Senate and House on a bipartisan basis for a Phase 4 
relief package.
    I believe a bipartisan agreement still should be reached, 
and would provide substantial funds for schools, testing, 
vaccines, PPP for small businesses, continued enhanced 
unemployment benefits, childcare, nutrition, agriculture, and 
the U.S. Postal Service, along with liability protection for 
universities, schools, and business.
    We have released a signature amount of information on our 
website, Treasury.gov, and are providing more information on 
USAspending.gov. We have also provided regular updates to 
Congress with this marking my fifth appearance before Congress 
for a CARES Act hearing. Additionally, we are cooperating with 
various oversight bodies, including three inspector generals, 
the new congressional Oversight Commission, and the GAO. 
Treasury and the Internal Service have made data and 
information regarding millions of economic impact payments 
available on the websites. The Department heads disclosed all 
payroll support payments to airlines and other programs on 
Treasury.Gov. We've also posted extensive documentation related 
to coronavirus relief fund payments to state, local, and Tribal 
governments on our website.
    We're also pleased that the Federal Reserve has posted loan 
information on its website regarding its lending facilities. We 
appreciate the subcommittee's interest in these issues, and 
have devoted significant resources to responding to each of the 
inquires. We remain committed to working with you to 
accommodate Congress' legislative need, and to further our 
whole-of-government approach to defeating COVID-19.
    I would like to thank the members of the committee for 
working with us to provide vital economic relief to the 
American people. I would be pleased to answer any questions you 
may have.
    Chairman Clyburn. Thank you very much, Mr. Secretary. Mr. 
Secretary, I wish to yield myself five minutes.
    Before we can fix the economy, we have to acknowledge the 
scale of the problem. On July 2, President Trump declared our 
economy is roaring back, is coming back extremely strong. He 
also predicted that the economy will have a fantastic third 
quarter. Today, we begin the last month of the third quarter. 
There's only one Wall Street with a small percentage of people, 
but this chart shows that there are 27 million American workers 
still receiving unemployment insurance. This is as of August 8, 
three weeks ago. That is more than 10 times the number of 
Americans receiving unemployment benefits before the pandemic. 
And since August 8, more than 2 million American workers have 
filed new unemployment claims.
    Mr. Secretary, do these record high unemployment numbers 
indicate that our economy is coming back extremely strong with 
a fantastic third quarter?
    Secretary Mnuchin. Mr. Chairman, let me first say we're in 
unprecedented situations where we closed down the entire U.S. 
economy, so this is not like a normal economic crisis. I'm 
having a tough time reading your graph from here, but let me 
just comment. There's 16 million people unemployed, down from 
24. People thought we were going to have 40 million people 
unemployed, but fortunately, we never had. And the continuing 
unemployment claims are 14.5 million as of August 15.
    So, I do think the economy is recovering very strongly, but 
let me just say, there are still areas of the economy, no fault 
to small businesses or our workers, that it needs more help to 
recover.
    Chairman Clyburn. Well, if we are to quibble--I won't 
quibble about the numbers as of the 8th. These numbers we have 
here are as of August 8, so maybe there's been that big a drop 
since August 8. At that point, we indicated that there were 
about 27 million Americans who were out of work and on 
unemployment, unemployment assistance.
    Now, many economists have warned that as relief measures 
expire, and as you know, unemployment has expired. The 
unemployment supplement that we provided has expired. Things 
will get even worse unless Congress enacts additional fiscal 
stimulus. Just last week, former Chair Janet Yellen, Fed Chair 
Janet Yellen, stated that ``Without congressional action, and 
I'm quoting her here, Americans will suffer, and the overall 
economy could degrade from its current slow rebound in growth 
to no growth at all,'' end of quote. Yet, the administration 
has refused to agree to the HEROES Act, or to any meaningful 
compromise to protect American families.
    When asked by this committee whether the $1 trillion relief 
package as the Republicans have proposed would be sufficient, 
Chairman Yellen replied, and I quote, ``I would be concerned 
about capping it when we know the needs of the state and local 
governments alone come close to that, and a substantial amount 
will also be needed for unemployment insurance for the public 
health needs,'' end of quote.
    Chair Ben Bernanke agreed, telling us that Congress needs 
to do whatever it takes to address the economic crisis.
    Mr. Secretary, will you commit to working in good faith 
with the congressional Democrats who want an agreement that 
does whatever it takes to assist struggling Americans to end 
this crisis?
    Secretary Mnuchin. Mr. Chairman, let me--let me say I very 
much agree with you and those other experts that more fiscal 
response is needed. The President and I want to move forward 
with more fiscal response. And let me just say the expiration 
of enhanced unemployment insurance is something that we are 
concerned about.
    I am very proud of the last two bills in the--in the 
Senate, passed 96-0 and 100-0. That is the definition of 
bipartisan support. I said in my opening testimony I believe 
that Republicans and Democrats need to work together to have 
additional support. As you know, I've worked very closely on 
these before. I'm prepared to sit down with the Speaker at any 
time to negotiate. I think the issue is not what is the top 
line; I think the issue is we need now support quickly. That's 
what's important to the American economy. And if we need to do 
more, we can come back.
    So, again, I want to emphasize, the President and I do 
support additional fiscal response, and we've been working hard 
to try to get a negotiated agreement on a bipartisan basis.
    Chairman Clyburn. Well, thank you very much for that. I see 
my time has expired, and so, hopefully, we have--I think we 
have a second round. I do have one or two more questions.
    With that, Mr. Jordan--I recognize Mr. Jordan for five 
minutes.
    Mr. Jordan. Thank you, Mr.--thank you, Mr. Chairman.
    Mr. Secretary, is it--is it fair to say that if Democrat 
Governors would let people go back to work in their states, 
we'd probably have less unemployment?
    Secretary Mnuchin. I--I believe there's no question that 
the reason we have unemployment is that certain states are not 
opening up, and that there are issues. Obviously, some of that 
has to be balanced with the medical issues appropriately. But 
yes, we would expect unemployment to drop significantly between 
now and the end of the year.
    Mr. Jordan. Yes. And it's largely Democrat states. I mean, 
Democrats keep their states locked down, then they complain 
about unemployment. Here's a novel idea. Let people go back to 
work, and I bet you'll get a lot less of it. You'll get 
stronger economic growth that will build on what we have seen 
in the last three months. How many jobs have been added to the 
economy in the last three months, Mr. Secretary?
    Secretary Mnuchin. An extraordinary amount. I think as you 
commented earlier, close to 10 million new jobs.
    Mr. Jordan. Ten million jobs in the last three months we're 
adding back. So, this is idea that there is not a V--there is a 
V-shaped recovery. It's happening. It would happen a lot sooner 
if you didn't have Democrat Governors keeping people from going 
back to work.
    Mr. Secretary, how many times have you testified in front 
of Congress?
    Secretary Mnuchin. More--more times than I can count.
    Mr. Jordan. Numerous times, right?
    Secretary Mnuchin. Yes.
    Mr. Jordan. I think you said--I think you said five times 
earlier. And you're--you're willing to come and talk about 
everything you've--you've done and the administration has done, 
because what you have put in place, the programs you have 
recommended, the programs that the Congress approved, they 
worked. How many--how many loans, again, in the PPP program?
    Secretary Mnuchin. The PPP program, as you know, kind of 
has 5.2 million loans that have supported an extraordinary 
number of jobs for small business.
    Mr. Jordan. Yes. I think the number is 50--over 50 million 
jobs, 51 million jobs through the PPP program. 85 percent of 
small businesses received support, and as--as you just said a 
few minutes ago, this had strong bipartisan support, this thing 
worked. You're not afraid to come and testify any and every 
time. I mean, not that you always want to be testifying in 
front of Congress, I understand that, but you're willing to 
come testify because the programs that were put in place, that 
the White House and the Trump administration and you supported, 
have actually made a huge difference for this economy, and are 
paying off now.
    If we didn't have this PPP program, would we be adding 9 
million jobs that you just saw in the last three months.
    Secretary Mnuchin. No. There--there are over--50 percent of 
the private jobs are small businesses, and let me comment. We 
have over $130 billion left in PPP, which I believe, if 
Congress is able to take up a standalone action to repurpose 
this money for additional funds, I believe this would pass with 
overwhelming support in the House and the Senate, and I would 
encourage the House to move forward with that.
    Mr. Jordan. Well, that's a great point, Mr. Secretary. 
Would you say that's the most important thing? If we were going 
to come together, forget all the other stuff the Democrats want 
to put in this bill, all the left-wing baloney they want to 
add, and we just focused on small businesses owners, helping 
families, focusing on the PPP program, is that the most 
important thing we should focus on if, in fact, there's going 
to be another piece of legislation?
    Secretary Mnuchin. I would say kids and jobs are the most 
important thing. And as it relates to jobs, the area that has 
overwhelming bipartisan support that I believe would be easiest 
to pass on a standalone basis would be the PPP.
    Mr. Jordan. Yes. If we just focused on that, and frankly, 
that's what you guys are trying to do. That's what you've been 
focused on in the negotiations with Speaker Pelosi. 
Unfortunately, she wants to add, and the Democrats want to add 
all kinds of other things, and frankly, they want to bail out 
the states. The same states, by the way, who are most clamoring 
for the bailout are the very states that won't let their folks 
go back to work, that are adding to that unemployment number 
that Mr. Clyburn, the chairman, talked about just a few minutes 
ago.
    I think it's--I think we're well past the time, well past 
the time when we should be focused on one thing and, one thing 
only, and that is letting people go back to work, getting this 
amazing economy we had just a few months ago, getting it back 
on track, the great American comeback, making that happen. And 
if we're going to do any legislation, let's focus just on the 
PPP program, which we know was so effective, so helpful to so 
many Americans.
    Mr. Chairman, I yield back.
    Chairman Clyburn. Thank you.
    Before yielding to Ms. Waters, I want to say I--I agree 
that jobs are important. I agree that children are important, 
and I have a few grandchildren. They're important. But health, 
health of every worker and every child, is most important.
    With that, I yield to Ms. Waters, five minutes.
    Ms. Waters. Thank you very much, Mr. Chairman, for holding 
this meeting. It's sad to see that we have a member on the 
opposite side of the aisle who will come here this morning 
playing the blame game.
    First of all, let me say that for the CARES Act, we commend 
everybody. We commend the Democrats. We commend the 
Republicans. I worked closely with Mr. Mnuchin. Nydia Velazquez 
and I worked closely on the PPP program, the MDI, the CDFI. 
Everybody that worked to get that CARES Act passed should be 
commended. Now, having said that, we can't rest because we did 
a good job with the CARES Act. $600 supplemental employment is 
out. And so, we have people with very meager benefits from the 
unemployment insurance who need their government to step up to 
help them.
    And then, we are facing a housing crisis. The millions of 
folks who are needing rental assistance are facing eviction. 
We're in the middle of a--of an epidemic with homelessness, 
with slum landlords. They're businesspeople, too. The mom-and-
pop landlords are struggling to pay their mortgage and other 
property maintenance costs, and their rental income has 
declined, or stopped all together. And I can go on and on about 
what's in the HEROES bill. And, so, instead of coming here 
bragging about what we've already done and trying to have 
everybody believe that the economy is so much better, that we 
really don't have to worry, that jobs are increasing to the 
extent that we should be happy instead of talking about what we 
do to create more jobs, let's put all of that aside. Let's put 
that aside and stop blaming Nancy Pelosi and stop blaming 
others who are basically negotiating.
    I'm not blaming Mr. Mnuchin. I want the Secretary to get to 
the negotiating table with Nancy Pelosi and Schumer and Meadows 
and get this job done.
    Now, this is not just about poor people. This is about 
middle class people also. Let me read you something from my 
district of one of my middle class people. This is from Mr. 
Kevin McGuire. He says ``I'm a venue operator in the 
entertainment business. When COVID-19 hit, I lost contracts 
with Coachella, the Olympics, and Kendrick Lamar, just to name 
a few. We're the ones that do your conventions. We're never 
going to rebound from this. I went from $1,000 a day to $900 
with EDD every two weeks. Twelve million of us are dying in the 
music industry. What are you going to do for us? If you need a 
voice, I'm here to help. I'm an emotional wreck. I'm not sick 
all by myself. There are others who are having panic attacks. 
Please, please help us.''
    And so, stop bragging about what we've already done. We 
have people who are hurting. And, you know, as we sit here, we 
have people who have not been able to pay their rent for almost 
three months. Some are almost three months behind. Certainly, 
many are two months behind. These are children. And while we 
have those who are talking about what we're going to do to get 
the children back in school, get the children back, if the 
children don't have a place to live and a bed to sleep in, 
school doesn't even matter. While all of us want our kids to be 
educated, we don't want any gaps in this education, they've got 
to have a place to live. And so, we have $100 billion in the 
HEROES Act for rental assistance.
    Please, please get back to the negotiating table. Forget 
all of this name blame mess that I hear going on. Get back, and 
let's get this country going. Let's stimulate this economy. 
This is our job. This is what people are expecting of us.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    Chairman Clyburn. I thank the gentlelady.
    Mr. Luetkemeyer, you are recognized for five minutes.
    Mr. Luetkemeyer. Thank you, Mr. Chairman. I just have a 
couple of comments here before I get started for some questions 
of Mr. Mnuchin. But in response to a couple comments you made 
with regards to oversight, you know, I--I did some quick 
calculating, and the initial first tranche of money from the 
PPP program was, I think, $342, $350 billion. And I think there 
was, if I remember correctly, about $280 billion that was out 
there that was inappropriately applied for or incorrectly given 
out. And I think the error ratio for that--while $280 billion--
$1 million is a lot of money, the error ratio is about 8/10ths 
of a percent. Anybody in the private sector would love to have 
that sort of error ratio.
    Then we start talking about the number of loans. You said 
10,000 loans are--are out here that have got problems with 
them. OK. Of the total of 5.2 million loans, that is less than 
2/10ths, 2/10ths of a percent. Again, let's keep perspective on 
this. You throw the numbers out there, but let's put 
perspective on them. Again, a 2/10ths percent error ratio, or 
fudge factor, or whatever the problem is there, that--that's a 
pretty good rate. Even--that's well beyond what we would expect 
from the government to be able to do.
    I think, you know, I've got a couple questions here with 
regards to some regulatory stuff, Mr. Secretary. You and I talk 
about this almost every time we meet. As you know, CECL is one 
of the hot button issues for me. That is a regulation that is 
out there that you, I think, have supported in the past to try 
and change and get rid of. I know the FDIC, the Fed, and 
comptroller had an interim rule back in March in the CARES Act 
which suspended it. I've got a bill to try and get rid of it 
altogether. I would hope you would be supportive of an effort 
like that.
    Secretary Mnuchin. We would be supportive of that.
    And--and I hope you don't mind. Since Chair Waters didn't 
ask me any questions, I do just want to acknowledge her work 
that she did with us on CDFIs. I want to thank her for that.
    Mr. Luetkemeyer. Well, to followup Ms.--Ms. Waters' remarks 
there, you know, you were getting hammered for bragging about 
the successes and the implementation of the program, but I 
think a lot of your--your statements were in response to 
criticisms by--by the chairman initially. So, you know, it's 
kind of hard to figure out which hand you're--you're supposed 
to respond to here.
    The other thing I want to talk about with regards to 
regulation is the Trouble Debt Restructuring rules. You know 
there's a--also an--in the CARES Act, we suspended that rule 
for a certain period of time here, and I think it's going to be 
continued to be important that we allow forbearance for--from 
the regulators to the banks and credit unions to be able to 
give forbearance to their customers to be able to get our 
economy back on track, unlike what happened in 1908 and 1909, 
as a result of the regulators going in and--and having to come 
in and classify all these loans and then force the banks to 
foreclose on all these folks, destroying businesses, jobs, 
communities as well as the banks and credit unions themselves.
    So, I'm hopeful, and we talked about this before, but I'd 
just like a quick response from you with regards to forbearance 
as well. It's really important, I think, to be--that we 
understand the importance of giving forbearance to the 
regulatory--to the lending institutions.
    Secretary Mnuchin. Yes. I agree with you on that as well. 
Thank you.
    Mr. Luetkemeyer. One other thing I want to talk about very 
quickly here is, I know that one of the things that was of some 
concern, and we go to oversight here with regards to the 
stimulus checks that went out. A lot of people are concerned 
that the people who are--who have passed, that are deceased, 
were getting those checks. And it came up in one of the other 
previous hearings that you didn't have access to the files from 
Social Security of those folks who had passed.
    Do you have that access now, or is there negotiations going 
on? We were told there was some negotiations going on to allow 
you access that if we have a second round of stimulus checks, 
you'd be able to do a better job implementing those the next 
time.
    Secretary Mnuchin. We do have access now, and we've 
recovered the majority of--of those funds. And there is a 
proposal in the Senate about potentially moving the death file 
to the IRS, which we would support going forward, but we do 
have access to that information if we get approval for more 
checks.
    Mr. Luetkemeyer. Thank you very much.
    With regards to, you know, again, improving the PPP program 
and going to stimulus checks or other programs out there, thank 
you for all you did with the Fed with regards to setting up all 
these different facilities. You were--you were able to prop up 
and give liquidity to and help capitalize a lot of stuff that's 
going on out there in different areas of the economy. What do 
you see as the weak areas of the economy that the PPP program 
would be helpful with regards to helping? And in the next 
tranche, or next support or passage of PPP, do you see that 
there would be a--like a loss of revenue trigger in there, a--a 
cap on the number of loans that--that businesses could apply 
for, or there are some types of businesses that could actually 
apply for it as well?
    Secretary Mnuchin. Well, as I said earlier, there's--
there's money left over, and I would very much target that 
money for businesses that have been the hardest hit. I think a 
decrease in revenues or a decrease in profits is the--the right 
approach. Again, I think we have bipartisan support for that, 
and it's many of the industries. It's--it's travel, 
restaurants, entertainments, hotels, many industries that had 
been still hit very, very hard.
    Mr. Luetkemeyer. Thank you, Mr. Secretary. I--my time is 
up, and I yield back.
    Chairman Clyburn. I thank the gentleman for yielding back.
    The chair now recognizes Ms. Velazquez for five minutes.
    Ms. Velazquez. Thank you, Mr. Chairman, and ranking member, 
for holding this important hearing.
    It really amazes me to hear that what does it represent, 
10,000 of loans being granted to ineligible businesses. The 
problem is that I just hear the Secretary saying that we should 
repurpose the $137 billion that is left for the PPP program. 
Well, as I mentioned to the Secretary, and thank you for 
working with me and Chairman--and Chairwoman Maxine Waters on 
the PPP, we have to make a commitment that we are going to use 
that money to provide access to those that were left behind. 
And this is why--one of the reasons why I insisted that SBA and 
Treasury collect the demographic data so that we were able to 
assess whether or not the PPP program was working as we 
intended.
    The reality is that the Office of Access to Capital of SBA 
said that they are seeing several lenders who are not 
collecting demographic data from borrowers on forgiveness 
application. So, how can you implement a program like PPP when 
you are completely unaware of the businesses that have received 
those loans?
    Look. SBA just came out and stated that Latino businesses 
declined by 32 percent, and that black owners have seen nearly 
three times the decline of other owners. So, I am happy to 
hear, and I welcome the Secretary's statement that that money 
should be intended to those businesses that have not been able 
to access PPP money.
    Mr. Secretary, is it true that you committed--that you have 
committed to audit only the tiny fraction of PPP loans that 
exceed $2 million, leaving the over 99.94 percent of loans with 
little or no oversight?
    Secretary Mnuchin. First, let me acknowledge the work that 
you've done with us already, and we look forward to working 
with you on making changes going forward to the program to make 
sure that the neediest have access.
    The answer to your question is no. What I have said 
publicly is every single loan that's $2 million and greater 
will go through an individual audit. All of the rest of the 
loans are also subject to audit. So, no, we've never said those 
loans wouldn't be audited. Whether it's 10,000 loans or whether 
it's 1 million loans, those loans will go through automated 
audits. Many of the things that the committee found, I would 
expect that SBA, when they review those loans and audit them, 
also will find those things on electronic basis. So no, I've 
said that all loans over $2 million will have 100 percent 
audit. That will be appropriate----
    Ms. Velazquez. Thank you. Thank you for your answer. My 
guess is that you disagree with the Senate bill that contained 
a streamlined forgiveness for those loans up to $2 million. So, 
to be eligible for a PPP loan, applicants must be in operation 
as of February 15, 2020, right?
    Secretary Mnuchin. Yes.
    Ms. Velazquez. Did you know how many companies received a 
PPP loan that were not in existence prior to February 15?
    Secretary Mnuchin. Well, I saw that, but let me just 
emphasize that these loans were based upon certifications, and 
obviously, all the certifications that are wrong, we'll get the 
money back. We had over $30 billion that was returned 
immediately. And in regard to your other comment, the Senate 
bill has been changed, so that even with streamlined 
forgiveness, they will be subject to audit by the SBA.
    Ms. Velazquez. OK. And do you know, prior to today, how 
many businesses on SAM's suspended and debarred list received 
PPP loans?
    Secretary Mnuchin. I do not, and let me just emphasize. We 
are working very closely with SBA.
    Ms. Velazquez. That's $96 million.
    Secretary Mnuchin. I understand that. Again, I appreciate 
the committee's work, and let me just emphasize we are working 
with SBA. It is their primary responsibility. They are standing 
up a detailed audit program, and I look forward to this 
committee and your committee and all the other oversight 
committees making sure they're comfortable with SBA's audit 
plan.
    Ms. Velazquez. OK. Thank you. And would you agree that 
stimulus checks and enhanced unemployment insurance benefits 
passed in CARES increase GDP and consumer spending, benefiting 
small businesses?
    Secretary Mnuchin. Yes, and that's why we--we'd like to 
extend enhanced unemployment, and we'd like to send out more 
economic impact payments. Those both have been critical to the 
economic recovery.
    Ms. Velazquez. Thank you. I yield back.
    Chairman Clyburn. Thank you, Ms. Velazquez.
    The chair now recognizes Mr. Foster for five minutes.
    Mr. Foster. Thank you, Mr. Chairman. And, first, I have a 
unanimous consent request. I would like to enter into the 
record a recent Wall Street Journal article on how the 
expiration of the $600 of expanded unemployment assistance and 
the failure to pass the HEROES Act or any Senate alternative 
has harmed Americans families. The article describes how 
Americans are spending less on groceries which, according to 
the article, quote, ``is a sign that Americans are hurting for 
cash as the Federal unemployment and stimulus remains on hold 
for most recipients.'' The article is titled ``With Second 
Stimulus Checks on Hold, Americans Spend Less at the Grocery 
Store,'' published in the Wall Street Journal on August 27, 
2020, and I seek unanimous consent to have that entered into 
the record.
    Chairman Clyburn. Without objection, so ordered.
    Mr. Foster. Thank you.
    And, thank you, Mr. Secretary, for appearing here. I'd like 
to speak more about the need to extend the enhanced UI, and I'm 
interested to hear that you agree in principle with this, and I 
wonder why we haven't seen the Senate pass an alternative to 
the HEROES Act. The job crisis that has caused--been caused by 
the administration's continuing failure to control the 
coronavirus is, unfortunately, far from over. In 22 of the last 
23 weeks, including the most recent week, more than 1 million 
Americans have filed for new unemployment claims. Enhanced 
Federal unemployment insurance has helped millions of Americans 
keep food on the table and a roof over their heads. And that's 
why we Democrats voted to extend these payments, because we 
know from talking to our constituents that the economic fallout 
from this pandemic is far from over.
    Unfortunately, because Senate Republicans refuse to agree 
to an extension, these benefits expired at the end of July, and 
left almost 30 million Americans without Federal help. This is 
not only wrong, Secretary Mnuchin, it is counterproductive if 
your goal is to actually fix the economy. The macroeconomic 
effects of the Senate's failure are huge. Former Fed Chair Ben 
Bernanke testified at this subcommittee that renewing 
unemployment insurance is important to, quote, ``increase 
aggregate demand and boost spending in the economy.'' The 
former Chair of the Council of Economic Advisors, Jason Furman, 
testified to our committee that the failure to remove these 
benefits are causing our country to lose, and I quote, ``about 
one years' worth of economic growth.''
    In the past, recessions have shown that every dollar spent 
on unemployment insurance generates as much as $2 in additional 
GDP for the economy. Conversely, the loss of extra job benefits 
is affecting consumer spending and their outlook. In August, 
the consumer confidence index unexpectedly fell to its lowest 
level in six years, not exactly a roaring-back economy. And 
this is especially worrisome because, as you know, consumer 
spending accounts for about 70 percent of economic activity in 
the U.S., and it has been hit most savagely by the coronavirus.
    So, Secretary Mnuchin, my question is, do you agree with 
Chair Bernanke and Mr. Furman that enhanced unemployment 
insurance provides an economic boost? And why is there 
opposition to extending the $600 in weekly benefits because, 
you know, in your words earlier, quote, ``in some cases, people 
are overpaid, and we want to make sure that there are the right 
incentives.'' Is that--do you view that as a serious argument?
    Secretary Mnuchin. Well, let me just say, the President 
extended through executive authority enhanced unemployment up 
to $400 per person. Now, we, unfortunately, don't have 
unlimited amounts of money that we can do that, but the 
President wanted to move forward, and many states have adopted 
this. So, I think there is----
    Mr. Foster. So, what you're saying then, you're saying that 
the President wanted to move forward, the House wanted to move 
forward with full unemployment benefits, and it is only the 
Senate that's holding it back?
    Secretary Mnuchin. No. What I said is, the President moved 
forward with enhanced unemployment. The Senate did move forward 
with a proposal of 70 percent of wages, capped at $600. I 
believe that was something we talked about----
    Mr. Foster. By moving forward that bill that they passed--
when you say the Senate moved forward, what bill did they pass 
that had this?
    Secretary Mnuchin. Well, again, unfortunately, Senator 
Schumer and Speaker Pelosi have not agreed to do this on a 
piecemeal basis. And I think you know anything takes 60 votes 
in the Senate. So, no, nothing could be passed without 
bipartisan support.
    But, again, I would encourage both the House and the 
Senate, there are areas that we have overlap in agreement. 
Let's move forward for the basis of the American people and 
American workers and kids. Things that we can agree on, let's 
pass quickly.
    Mr. Foster. OK. And so, in my second round, I'll have some 
more questions about the nuts and bolts of the executive order 
and how it is or is not working as promised.
    Thanks much. I yield back
    Chairman Clyburn. Thank you for yielding back.
    I now yield five minutes to Mr. Raskin.
    Mr. Raskin. Thank you, Mr. Chairman.
    Secretary Mnuchin, welcome.
    President Trump has called our Postal Service a joke. And 
as he's gotten you more involved in the Postal Service, I 
wonder whether he's told you which changes he's specifically 
seeking in the post office relating to elections or Amazon?
    Secretary Mnuchin. Well, I think you know I chaired a 
postal task force. One of the recommendations we made was for 
the post office to look at package pricing for e-commerce. Now, 
that's not part of the universal obligation. I recommended that 
to the President. But other than things I've recommended, the 
President has not made any specific comments to me.
    Mr. Raskin. OK. You were national finance chairman of the 
Trump campaign and Louis DeJoy was the deputy national finance 
chairman of the Republican National Committee. Did you first 
get to know him in that political context or did you know him 
through a business context? And based on your experience with 
him in either the political or business arenas, did you 
consider him qualified to be the Postmaster General?
    Secretary Mnuchin. I first met him in 2016. I had not seen 
or spoken to him in the last year. I do consider him to be very 
qualified to be the Postmaster General. But, again, I had no 
specific conversations with him about that job until the 
committee updated me that he was one of the finalists.
    Mr. Raskin. Did you ever discuss his possible appointment 
or his qualifications with the Republican Governors on the 
Postal Board, such as Mr. Duncan?
    Secretary Mnuchin. I never discussed his qualifications. 
Again, they gave me an update on their search process, but I 
never made any specific comments recommending him or not 
recommending him.
    Mr. Raskin. Well, it's been widely reported that in 
February you met with two Republican members of the Postal 
Governors Board to discuss the replacement of outgoing 
Postmaster General Brennan. Why did you get involved in that 
process? And why did you invite just Republican Governors on 
this bipartisan board with a nonpartisan mission to have a 
discussion with you, but no Democratic Governors?
    Secretary Mnuchin. Well, let me just say, one of my things 
that I'm very proud of is I recommended, as part of the task 
force, that we have the Senate confirm a board of Governors, 
that for too long there had been no oversight. So, I'm very 
pleased the Senate had a bipartisan board.
    In that one case, again, one of the people was chair of the 
board and the other was chair of the subcommittee. I had other 
meetings that did include Democrats. And, again, as the largest 
creditor, it was appropriate for them to keep me posted. But, 
again, I had no involvement in the recruitment of the 
Postmaster General at all.
    Mr. Raskin. It's been stated by the former Vice Chairman of 
the board that when Mr. DeJoy somehow mysteriously surfaced as 
a candidate at the end of the process, when he had not been 
part of the original search firm process, that he seemed almost 
reluctant to take the job, and when he first appeared before 
the selection committee it was as if he was interviewing the 
selection committee, to the point where one of them said at the 
end: Well, we better ask you a question just so we can say 
there was a real interview.
    Were you involved in trying to convince Mr. DeJoy to take 
this position? And what kind of communications did you have 
with him during the process as it unfolded?
    Secretary Mnuchin. Again, I did not try to convince him to 
take it. Again, I had no involvement. As I've said before, I 
was quite surprised when I found out that he was a candidate. 
Again, I had no involvement in that process whatsoever. But let 
me just say, he was approved on a bipartisan basis by the 
committee.
    Mr. Raskin. Well, yes. And one member resigned, of course, 
in protest.
    But in any event, it's been reported that you pressured the 
Postal Service to give the President and the Treasury 
Department sweeping control over the internal operations of the 
post office, including over hiring decisions for senior 
appointees and over service contracts with third-party private 
shippers, in exchange for an urgently needed Federal loan. 
According to a former member of the Board of Governors, you 
pressed for these changes even after the Postal Service general 
counsel told you that these demands were illegal.
    Can you explain why you think it would benefit the American 
people to give greater operational control over the post office 
to the administration in exchange for this loan? And what 
specific requests and demands did you, in fact, make?
    Secretary Mnuchin. So, let me be perfectly clear, OK. 
Whatever was made was solely from the Treasury Department and 
was not in any way from other areas of the administration, No. 
1.
    No. 2, I chair the Federal Financing Bank. We are the 
largest creditor.
    No. 3, I was authorized by Congress to lend additional 
money. And, yes, as a typical creditor would, we wanted details 
of the largest contracts. That's typical of what would be 
required from a lender. And in no way did we ever try to have 
operational control on the post office. I think that's 
absolutely ridiculous.
    I would also comment, we did agree with Senator Schumer and 
the Speaker on money for the post office. This was an area of 
agreement. The post office has substantial cash, and we want to 
make sure they have plenty of liquidity in any scenario going 
forward.
    Mr. Raskin. OK. And so, can you commit that the post office 
will get the resources it needs to deliver the mail on time and 
so that we can have a fair and accurate election in 2020?
    Secretary Mnuchin. I can only commit that they will have 
the funds available. I can't make any other commitments other 
than money. We have a signed term sheet. They have $10 billion 
they can draw down whenever they need it, subject to very 
minimal conditions that they've signed and agreed to.
    And as part of a new package, we've agreed, again, we'll 
give them another $10 billion, which is more than enough money 
on top of their 14 billion of cash.
    Mr. Raskin. My time's up. I yield back, Mr. Chairman. Thank 
you.
    Chairman Clyburn. Thank you.
    The chair now yields five minutes to Mr. Kim.
    Mr. Kim. Thank you, Mr. Chairman.
    Secretary Mnuchin, thank you so much for coming over here. 
Appreciate your time.
    I wanted to just start with a question from a restaurant 
owner in my district. He asked me this question and I promised 
him that I would come down to D.C. and ask this to you.
    I wanted to just ask you, what does success mean to you 
when it comes to this economic recovery? What is the goal that 
you're trying to achieve and the metrics and the measures of 
success that you're using to see if we're getting there?
    Secretary Mnuchin. Well, let me first say I think there's 
many measures of success. There's not a single measure. But one 
of the most important measures is getting everybody back to 
work who lost their jobs as a result of this. Another measure 
is to make sure that small businesses can succeed. Another 
measure is to make sure that we have money that our kids can go 
to school safely.
    So, there are many measures. But I think on an economic 
standpoint, things like employment, retail sales, GDP are all 
important statistics.
    Mr. Kim. Earlier this summer the National Economic Council 
head, Larry Kudlow, stated, and I quote: ``At the moment the 
story looks very good. We're set for a V-shaped recovery.''
    Mr. Secretary, would you say that the V-shaped recovery is 
achievable? Is that what looks like is happening to you?
    Secretary Mnuchin. I think we are set for a very strong 
recovery. But let me just say that there are many industries 
and many small businesses that have been destroyed by this. And 
that's why I urge Congress, the House and the Senate, to move 
forward and let us provide help, especially for those hardest 
hit businesses.
    Mr. Kim. I think the point that you just made is one that 
we need to linger on some more. So, I wanted to just raise 
something here, because I feel like the language being--coming 
from you and from this administration is not hitting at the 
urgency that we see out there right now.
    Many experts that I've talked to are warning about this K-
shaped recovery rather than a V-shaped recovery. And if you 
look at just this chart back here, what it's showing is that 
when it comes to high wages, that a lot of the unemployment has 
bounced back. The employment has bounced back. It's about minus 
0.5 percent. But when it comes to lower wages, we're looking at 
about negative 15.7 percent in terms of employment coming back 
on that front.
    So it's that inequality that is something that I'm 
concerned about, Mr. Secretary, here, is that I understand that 
there is momentum and progress in some parts of it, but I don't 
feel like that inequality is being addressed to the level that 
we need to. I just read through your testimony, I listened to 
your opening statements, and at no place are you mentioning the 
inequality that is happening in our recovery.
    So, I just wanted to ask you, again, looking at this chart 
behind me, does this look like the signs of a healthy recovery 
to you?
    Secretary Mnuchin. Well, I'm not familiar with the chart, 
so I'd be more than happy to look at the numbers and get back 
to you. But what I would say I am familiar with is, the 
services industries have been particularly hard hit. Many of 
the service industries do employ people at lower wages. So, 
again, I can't verify the numbers, but I'm not surprised 
directionality.
    And, again, I just want to assure you, the President, the 
entire administration, thinks there is more work to be done. 
Let's not get lost on different letters of the alphabet. Let's 
move forward on a bipartisan basis on areas that we can agree 
upon because there are clearly parts of the economy that need 
more work.
    Mr. Kim. When it comes to this inequality that's built into 
this recovery, what concerns me is that if we don't seriously 
address it that we could see this pandemic actually exacerbate 
this inequality in our Nation.
    We had inequality well before this pandemic. I think you 
would agree with that. But what I worry about is the trajectory 
that we're on is something that could actually make America 
more unequal than it was before the pandemic. Is that a concern 
that you have?
    Secretary Mnuchin. Well, it's something we're focused on. 
And let me just say, one of the areas we've agreed upon, on a 
bipartisan basis, Chair Waters, Chair Velazquez, Senator 
Warner, others, Crapo, is an idea to put $10 billion into CDFI 
banks that would create a hundred billion dollars of lending in 
areas that have been hardest hit and minorities and other 
areas.
    So, again, I urge Congress needs to work to move forward 
because there are areas we need to focus on.
    Mr. Kim. And what I just urge you to consider here is, as 
you speak about the economy and as you're talking about it, 
whether in this Chamber or elsewhere, on the media or 
elsewhere, is really try to continue to highlight that 
inequality that is built in there. I think your messaging has 
been too geared toward one that is only looking at a certain 
segment of America, and a lot of people in my district don't 
align with that, don't--your comments aren't resonating with 
them because they are experiencing a tremendous amount of hurt 
right now.
    So, I'd just ask for that continued attention and emphasis 
on that as we move ahead.
    Thank you, Mr. Secretary.
    Mr. Chairman, back to you.
    Chairman Clyburn. Thank you.
    Before going to a second round, the chair would declare a 
five-minute recess.
    [Recess.]
    Chairman Clyburn. The committee will reconvene.
    I'm going to begin the second round by recognizing myself 
for five minutes.
    Mr. Secretary, I've asked the staff to provide you with a 
copy of this chart. When numbers are that far apart, mine and 
yours, I think the public and the record are deserving of 
knowing what we're talking about here.
    Now, the blue in this chart, these are the people who are 
the traditional unemployment people, and I think that's your 
number.
    When you add the red to that, the people that we created, 
with the contractors, et cetera, that added with the stimulus, 
you get up to about 27 million.
    So, I think it's--we need to make sure that we're talking 
about the same thing. So, I'm talking about all people, 
traditional as well as the ones we made eligible with the 
appropriations of the CARES Act.
    Secretary Mnuchin. We'd be more than happy to followup with 
your staff and make sure we reconcile this afterwards. I think 
yours are all the claims if you add them up on a cumulative 
basis as opposed to how many people are on unemployment 
assistance as of August 4. Because as I said, there's more 
people here than there are unemployed. But we'd be happy to 
followup with you and reconcile.
    Chairman Clyburn. Thank you.
    Now, there are a couple of things that were said in the 
first round that I want to really clarify. We keep talking 
about if the Democrats were to reopen their state governments. 
Now, the fact of the matter is, many of us have been crying out 
for a long time for a national program, which we don't have. 
This is an international pandemic, and we need to have a 
national program in response to it, which we don't have. It has 
been left up to the states, all states.
    And as far as I can determine--I'm from South Carolina and 
we've got a very Republican Governor, and we have not reopened. 
Partially, yes, but it's not reopened. This is not just 
Democratic Governors not reopening schools and businesses. This 
is every Governor taking into account the health situation in 
their particular state.
    So, this foolishness about if the Democratic Governors were 
to reopen their states, I'm looking forward to all 50 states 
reopening, and we are not there yet.
    I would like to ask, though, do these record high 
unemployment numbers indicate that our economy is coming back 
extremely strong with a fantastic third quarter? I asked that 
really before.
    Now, I've seen the headlines today. What a great day, I 
think a record day that Wall Street had. The stock market is 
doing great, the investor class doing fantastic. But I 
represent an equal number of people that's in the other of the 
434 other Members of Congress. They are not feeling it. There's 
one Wall Street and there are thousands of Main Streets that 
are not doing well.
    So I just--I'm having a real problem with us judging this 
economy based upon some minute percent of one percent doing 
well when millions, literally millions, are hungry, being 
evicted, for three months now not able to pay rent, people 
having--seeking mercy for mortgages. There's no jobs, no food 
on their table.
    How do we factor them into our thinking when you start 
talking about this great third quarter and we are now in the 
final month of this great third quarter? How do you reconcile 
that?
    Secretary Mnuchin. Well, let me just emphasize--and, again, 
I agree with you--we are still very far from where we were in 
January where we had a record economy. We have 10 million 
people who are still impacted by loss of jobs as a result of 
this.
    So ``great'' is a relative term. Relative to shutting off 
the entire economy and relative to people thinking we'd have 40 
million unemployed, we are doing great. Relative to we were in 
January, we have more work to do, particularly in certain areas 
of the economy that have been hit very, very hard.
    And, again, I want to emphasize, that's why we support 
Congress moving forward with more targeted measures, especially 
for those people who are still impacted no fault of their own. 
This is not like the recession. This is a health-related issue.
    Chairman Clyburn. Well, Mr. Secretary, if Democrats in the 
House--and we are, for whatever reason, we're closer to the 
day-to-day people simply because we represent congressional 
districts, we don't represent states, we represent 
congressional districts, we have a smaller group of people that 
we work with--and if we are finding that in order to address 
the concerns that are bigger than us, these small local 
governments that are now about to lay off people--which would 
then close down some local banks that I know. I spent 14 years 
in the banking industry before coming here. I know a little bit 
about banks and what they rely upon.
    And we are saying that we think it takes $3.2 trillion to 
address this issue so the state and local governments can be 
involved, and you are proposing a $1 trillion program with no 
regards to state and local governments at all. And we're 
saying, let's find some common ground here, we are willing to 
come down from 3.2 trillion down to maybe 2 if you all are 
willing to come up and include in what you're doing state and 
local governments. Is that unreasonable?
    Secretary Mnuchin. Mr. Chairman, if the Speaker wants to 
include you at the negotiating table, I'd welcome you there 
with us.
    Let me say that, as I said before, unprecedented bipartisan 
support. We spent 15 percent of GDP. Last time, we agreed to 
support state and local. The President and I have agreed for 
more money on state and local.
    Again, like any other negotiation, in my opinion, we should 
agree on areas where we can agree and move forward for the 
benefit of the American people. That's what we're all here for. 
So, whether it's 1 trillion or 1.5 trillion, again, let's not 
get caught on a number. Let's agree on things, we can move 
forward on a bipartisan basis now.
    I don't think the right outcome is zero. Nobody thinks the 
right outcome is zero.
    Chairman Clyburn. So just so I can understand, you're 
telling me that you agree that we need to have state and local 
governments included in the next tranche of funding?
    Secretary Mnuchin. Chief of Staff Meadows and I put on the 
table some more money for state and local government in the 
context of an overall bipartisan deal. That was in an effort to 
reach an agreement.
    And, again, as I've said before, we've done multiple deals 
before. We can do multiple deals again. We don't all know 
exactly where the economy is going. What is the most important 
thing is we deliver some relief quickly to the American workers 
that are most impacted by this.
    Chairman Clyburn. Thank you. I think my time is expired.
    The chair now recognizes Mr. Jordan for five minutes.
    Mr. Jordan. Thank you, Mr. Chairman.
    Secretary Mnuchin, doesn't every state and every local 
government have some money right now that was allocated in the 
CARES Act back at the end of March?
    Secretary Mnuchin. They all have money left, and they also 
have access to a Federal Reserve facility if they can't borrow 
in the markets.
    Mr. Jordan. And would maybe a smarter approach be 
legislation that my colleague from our state, Mr. Davidson, has 
put forward to give additional flexibility to state and local 
governments with that money? For example, my understanding is, 
it was largely targeted for COVID direct expenses, talking 
about local city, local township, local county government, it 
was largely targeted for COVID direct expenses. Why not give 
some flexibility?
    They got additional dollars that they didn't spend on COVID 
directly, money that could be used to keep a policeman on the 
force, hire a fireman, keep a first responder. Why not just 
give that flexibility? Does that make sense to you?
    Secretary Mnuchin. We do support additional flexibility in 
legislation. We've already did guidelines so that money can be 
spent for firemen, policemen, health workers, first responders. 
But, yes, we do agree with you, we would support additional 
flexibility in an additional legislation.
    Mr. Jordan. It's so common sense. The money's out the door. 
It's there. It hasn't been spent. In some cases, it's lots of 
money that hasn't been spent. Give local governments the 
flexibility to do what's best for their community versus 
spending the additional trillions of dollars, $3 trillion that 
the Democrats want to spend.
    Unfortunately, I have to run to across the state, Mr. 
Secretary, to the other side. I'm running tight on time. I want 
to thank you for great work.
    Mr. Chairman, I apologize, but I have to go. So, I yield 
back.
    Chairman Clyburn. I thank the gentleman for yielding back.
    The chair now recognizes Ms. Waters for five minutes.
    Ms. Waters, you need to unmute.
    Ms. Waters. There we are.
    Our Speaker, Nancy Pelosi, was, I think, perhaps the first 
in the negotiations to compromise. Yes, the House passed a 3.4 
trillion, I believe it was, for the HEROES Act. The Republicans 
have been stuck on the total response in HEROES for only $1 
trillion. And at this point, you mentioned, Mr. Chairman, 
perhaps a 2.2.
    And I'd like to ask, Mr. Mnuchin, the Secretary, whether or 
not you have agreed or you support something in the 
neighborhood of 2.2 as a compromise from your position on 1 
trillion.
    Secretary Mnuchin. I do not support 2.2 trillion, but 
what's more important is what is the breakdown in getting money 
to American workers, American families, kids, where we can 
agree on money. There is tremendous areas of agreement, and 
that's what we should be doing right away.
    Ms. Waters. So, what are those areas of agreement?
    Secretary Mnuchin. Oh, I believe there's enormous agreement 
on the PPP. I want to thank you and others, I think, on a 
bipartisan basis. The committees here and the Senate have made 
improvements to the PPP going forward.
    I think there's an agreement on money for schools. There 
may be a difference as to what it is. There's an agreement on 
enhanced unemployment going forward. There may be a slight 
disagreement in what the amount is in calculation. I think 
there's been an agreement on direct payments.
    As I mentioned earlier, there was even an agreement on 
postal, which seems to have more excitement and more interest 
than the postal has ever had in the history of time.
    But there's plenty of areas of agreement where we may be 
differing on amount. But, again, my----
    Ms. Waters. If I may, your big disagreement is on city and 
state. Is that right?
    Secretary Mnuchin. Again, it's----
    Ms. Waters. Mr. Jordan keeps saying they have plenty of 
money----
    Secretary Mnuchin. Again, I----
    Ms. Waters [continuing]. And I'm not so sure that's true.
    Secretary Mnuchin. Chair Waters, I want to be careful, 
because I think it is hard to negotiate in a public agreement, 
in a public way.
    But I would say, we conceded, Chief Meadows and I, on 
behalf of the President. We had reviewed this with the 
President in an effort to get a deal done and get other things 
that are very important for the American public, even agreed to 
put more money on the table for cities and states.
    Unfortunately, Senator Schumer and Speaker Pelosi do not 
want to sit down at the negotiating table unless we publicly 
agree on a top line. My own opinion is we should go piece by 
piece and any area of the legislation we can agree on, we 
should have the House and the Senate pass.
    Ms. Waters. On city and states there has been some 
reference to police and fire, and there's a lot of discussion 
about the funding of police now. Don't you understand, for 
those people who are worried about the funding for police as 
this whole discussion takes place about defunding, that to the 
degree that you are not agreeing on city and state funding, 
that you are, in essence, defunding the police and the fire 
departments?
    Secretary Mnuchin. No, let me be clear. We are not 
defunding the police or fire. We gave complete flexibility, and 
the money that every state has, they can use that money right 
now to pay policemen, firemen, first responders instead of 
laying them off. Every single state has access to those funds. 
And as part of additional funding, we would be willing to 
provide more money.
    Ms. Waters. Well, let me just say this. The cities, in 
particular, are using some of that money for rental assistance. 
Many of them had eviction moratoriums. Those moratoriums are 
over. We've not done anything for them in the Federal 
Government.
    As a matter of fact, the President of the United States, in 
one of his executive orders, did not give any support to rental 
assistance and threw it over to HUD and two of the other 
agencies to say review this, take a look at this.
    And so, cities are stepping up to the plate to the degree 
that they can. My city of L.A., the county of L.A., other 
cities are doing what they can to keep from putting people out 
on the sidewalk.
    So when you talk about the cities having money, you're 
talking about the cities having look--looking at what to do to 
take care of the heroes, the first responders, what to do, and 
how to be of assistance to those who need rental assistance.
    So, what do you think, that the cities and the states have 
unlimited money to take care of everything that we're not 
taking care of? Did you know that the cities are using money to 
extend the moratorium so that people are not put out on the 
street? Did you know that?
    Secretary Mnuchin. I did. And let me just say, after the 
market closes this afternoon, we'll be releasing specific 
information from the administration on the moratorium. I think 
you'll be quite pleased with the impact that it'll have.
    I would also say we did have bipartisan agreement about 
putting more money for rental assistance. Again, we maybe 
differ on the amount, but I can say we've agreed with the 
Democrats on the idea of providing money for rental assistance. 
And, yes, I know, as you know, I appreciate what's going on in 
Los Angeles.
    Ms. Waters. Well, thank you so very much.
    And let me just say that on that rental assistance--and I'm 
very pleased that you support that and there may be an 
agreement forthcoming. But let me just say, we put a hundred 
billion in there. And so, if these negotiations are talking 
about 5 billion, 10 billion less, I'm sure you can come 
together on that. But if you're talking about half of it 
instead of 100 billion, that's going to be a problem.
    So, I'm hopeful that you're able to move closer to the 
amount that we placed in the HEROES Act, because I'm absolutely 
worried about the children and the families and their ability 
to have a roof over their head. So, go back to the negotiating 
table.
    Would you be willing to call my Speaker and say you want to 
go back to the negotiating table today?
    Secretary Mnuchin. I would publicly say I am willing to sit 
down at the negotiating table with the Speaker with no 
conditions whatsoever any time, other than I think the chair 
expects me here for a bit longer, but maybe even he would 
concede if the Speaker wanted to interrupt this to negotiate 
right now.
    Chairman Clyburn. Absolutely.
    Secretary Mnuchin. Let me just say one thing. When we ran 
out of money at the PPP, what did we do? We came back to 
Congress and on a bipartisan basis more money was agreed to.
    So, I happen to think the hundred billion dollars is way 
too much. That's not what I think we need. But, by the way, if 
we agree on money and we run out quickly, you are all still 
here for us to come back. So, let's start spending money where 
we can agree to help the American people.
    Ms. Waters. Well, I thank you. You're right, there's 
opportunity to always come back. It's harder in some cases. But 
if you don't start out too low, we won't have that problem.
    And so, I'm so pleased that you're willing to go back. I 
ask if you are willing to call her and say: Let's get back. And 
I'm not concerned about the hours. I know you work long, hard 
hours.
    But this is the kind of thing that if negotiations take 24 
hours a day, we've got to get it done. The people are hurting. 
And we can't stimulate the economy unless we have money to 
spend. The only way to have money to spend is to put a stimulus 
package out there, to supplement the unemployment, so that when 
they get this money they don't hold on to it, they put it right 
back into the economy, they spend the money.
    So, you want to go back in and try to get back in as soon 
as possible, even today?
    Secretary Mnuchin. Can I tell her that you suggested I call 
her right after the hearing?
    Ms. Waters. Yes. Yes. Yes.
    Secretary Mnuchin. Done. I will call her right after the 
hearing. Thank you, Chairwoman.
    Ms. Waters. Thank you very much. Thank you.
    I yield back.
    Chairman Clyburn. Thank you, Ms. Waters.
    The chair now recognizes Mr. Luetkemeyer for five minutes.
    Mr. Luetkemeyer. Thank you, again, Mr. Chairman.
    And thank you, Secretary Mnuchin, for your continued 
patience with the discussions we're having here today.
    I'd like to go back to the PPP for a second with regards to 
the forgiveness provision that's in the program. I know there's 
been a lot of discussion about how quickly we can get that 
forgiveness done, can you streamline it.
    Can you tell us where you're at and what your thoughts are 
on the forgiveness portion of the PPP?
    Secretary Mnuchin. So, let me just say the SBA system is 
now open for forgiveness applications. I think, as you know, 
we've been having conversations on a bipartisan basis with the 
committees in the House and the Senate on the smaller loans, 
how to strike the right balance between proper audits and not 
bureaucracy for very small businesses, and we're open to 
working on any additional thoughts with the committees on 
future legislation.
    But we want to strike the right balance between, as the 
chair has noted, there are appropriate people out there that 
took loans that shouldn't have taken loans. We want to get 
money back for the taxpayers with making sure that, for most of 
the people out there, they can get forgiveness quickly.
    Mr. Luetkemeyer. Well, you know, I think the numbers will 
tell you that 99.9 percent and above was correctly applied for. 
And I think, you know, the financial institutions as well as 
the individuals will like to have some certainty with regards 
to how quickly we get this thing done and how expensive it's 
going to be for them to get this program behind them.
    I mean, for some of these small businesses to apply for 
forgiveness, it'll be very, very expensive to have to go 
through the process. So that's what they're telling me anyway. 
I mean, can you give us any insights or any thoughts with 
regards to streamlining the process for small loans? I mean, 
this is a really, really big deal to a lot of small businesses.
    And I know this is a targeted group that you really were 
wanting to try to help, and yet the forgiveness part of this 
program seemed to be a little more punitive than we really need 
to have it. What are your thoughts on that?
    Secretary Mnuchin. Well, first, let me just say, I want to 
thank the financial institutions, because we never could have 
done it without them, particularly the smaller institutions, a 
lot of the institutions that were a billion dollars of assets 
or below 10 billion and the CDFIs. We had over 300 CDFIs that 
participated.
    And, again, we want to strike the right balance, because 
there's a lot of people who have $10,000, $20,000 loans that 
should be really easy for them to get forgiveness.
    Mr. Luetkemeyer. OK. Moving on to a little bit different 
subject here. With regards to the package of a second round of 
the CARES Act 2.0, whatever we call it here, everybody's 
talking about trying to be negotiated at the present time.
    A couple things that I am surely encouraging and hope that 
you get in there is some dollars for nursing homes and 
hospitals, especially for testing. The continued testing that 
these institutions have to do is really, really expensive, 
especially if you wind up with the COVID going through the 
institution.
    And a second group would be the schools. You know, most 
of--our public schools are all financed through state funding, 
and state funding has a lot of times been cut or are just not 
there at all.
    And so those two groups of entities really need some help, 
and I'm hoping that that would be included in there. And if you 
had some thoughts on it, I'd sure appreciate what your thoughts 
would be along that line.
    Secretary Mnuchin. So, we do want more money for testing 
and vaccines. I've been working closely with Mark Meadows on 
the testing issue. I must say we're really pleased with the 
announcement last week with Abbott. We're procuring 150 million 
tests that are point-of-care tests that can be done right away. 
Five dollars apiece, so very, very cost effective. And there's 
going to be enough tests that we could deliver them to every 
single school so they could test students three times if 
needed. We'll also send them to nursing homes, hospitals.
    But our work's not done. We need more money for testing. We 
have more things lined up. Point-of-care testing, which is now 
available, is critical. That allows people to get results very 
quickly, cost effectively.
    And let me just say on the 150 million tests, these will be 
paid for by the Federal Government and distributed to the 
states for them to use as they deem best.
    Mr. Luetkemeyer. OK. My final question deals with the 
incentives that we had in the--and the $600 payment that we had 
with regards to those who were unemployed. You know, I'm of the 
opinion that I would hope that in the next package, instead of 
what basically wound up being an incentive to stay home and not 
work, that we find a way to incentivize people to work, either 
through incentivizing the business to hire or incentivizing the 
individual themselves to go back to work.
    Have you had some thoughts along those lines and what your 
ideas may be?
    Secretary Mnuchin. Well, we have a series of proposals, 
including tax credits to incentivize companies to hire people. 
Again, these would be targeted to the hardest hit businesses 
that need help.
    So, yes, I think it's got to be a combination of having 
enhanced unemployment at the appropriate dollar level. And 
there's no question, there are areas of the economy where the 
$600 is preventing people from being hired. I spoke to one 
company that's trying to hire 5,000 people that's having a very 
difficult time and they're having to pay their own workers a 
thousand dollars a person to refer people.
    But we do need enhanced unemployment and we do need 
incentives to rehire people, combination of both.
    Mr. Luetkemeyer. I appreciate that. I know anecdotally a 
couple of my employers locally here in my district, they 
couldn't hire anybody for any amount of money it seemed like. 
And then as soon as the $600 check went away, why suddenly 
they've got more applications for the jobs they have than what 
they can fill now.
    So, it was a disincentive to many, many people to find work 
and find that right balance of individuals who, through no 
fault of their own, are still unemployed because they're in an 
industry that is still hard hit. That's one thing. But to 
incentivize people at a level that you're talking about here, 
to find that balance, I think that's critical to make sure we 
don't incentivize them to stay home. That doesn't help our 
economy, doesn't help them at all as well.
    Thank you, Mr. Secretary.
    With that, I yield back.
    Chairman Clyburn. I thank the gentleman for yielding back.
    The chair now recognizes Ms. Velazquez for five minutes.
    Ms. Velazquez. Thank you, Mr. Chairman.
    I just would like to react to a comment made by Secretary 
Mnuchin. You said that the economy was doing so well before 
COVID. However, the Federal Reserve stated that before COVID 
even hit, 40 percent of Americans do not have $400 in the bank 
for emergency expenses.
    To me, that's an economy that is working for the top, is 
working well for those at the top. And I hear you that we need 
to address those that are the ones hardest hit by this pandemic 
and areas in the country that have not been able to really get 
back on track.
    So, I just would like to discuss with you the Federal 
Reserve's Main Street Lending Facility. That facility was set 
up by you and others at the Federal Reserve, right?
    Secretary Mnuchin. Yes.
    Ms. Velazquez. And the Fed's August report stated that the 
Main Street Lending Facility had made only 14 loans and one for 
50 million. So why is that? If the need is there, why only 14 
loans when in the CARES Act we invested $75 billion? Why to 
this day only 14 million--14 loans nationwide?
    Secretary Mnuchin. Let me just say, I want to commend the 
Federal Reserve because it's really, really difficult to get a 
program like this up and running. So even though we would have 
liked to have done it quicker, it was an extraordinary amount 
of work. It's now up. We've done over a billion dollars of 
loans. I think our estimate is we will do 25 to 50 billion 
dollars of Main Street.
    Now, fortunately, a lot of businesses have been able to 
access bank financing so they won't need Main Street. And, 
unfortunately, there's many businesses that won't be able to 
access Main Street because they have significant problems. They 
don't just need more debt. And, again, that's one of the 
reasons why I think the increase in the PPP is so important.
    Ms. Velazquez. Mr. Secretary, with the financial crisis 
that is hitting every corner of our country, and 28 million 
businesses, only 5 million got PPP money and another 2, 3, 4 
million of EIDL money.
    So to have a facility such as that, and out of the 14 
loans, eight were made in Florida, two were made in 
Pennsylvania, so just--I just can't grasp how could we explain, 
given the need, that only 14 loans have been made.
    What changes are going to be made to the Federal Reserve's 
lending programs to assist small firms that truly need it?
    Secretary Mnuchin. I, unfortunately, don't know the exact 
number, but I'll get it to your office this afternoon. As I 
said, I know we're up to over a billion in volume on the way to 
what we think is 25 to 50 billion. So now it's up and running, 
there are a lot of loans in the system, and we'll get you the 
exact number this afternoon. It's way more than 14.
    So, I expect----
    Ms. Velazquez. The numbers that we have, it's eight in 
Florida. Two loans, including the 50 million, were made in 
Pennsylvania. So, I would love to see those numbers.
    But, again, what type of changes are you going to make to 
the program so that we can really assist the small businesses 
that need it the most?
    Secretary Mnuchin. Well, right now it's up and running and 
banks are originating. It took a long time to get up and 
running. So, the changes that we are making are the Fed will be 
rolling out a facility to extend it to nonprofits. But, again, 
I think for the existing facility, it's now up and running and 
I think you're going to see a lot of volume over the next two 
months.
    Ms. Velazquez. OK. Mr. Secretary, President Trump's recent 
executive order related to housing does little to protect the 
renters and homeowners facing evictions and foreclosures. Among 
my numerous concerns with the order is that it does provide no 
Federal funding to help households struggling to afford their 
housing costs. It merely directs you as Secretary of the 
Treasury, as well as Secretary Carson, to identify existing 
Federal funds that could be used to provide temporary 
assistance to renters and homeowners.
    So, my question to you is, what funds have you and 
Secretary Carson identified? And do they come close to the $162 
billion that renters and homeowners are currently estimated to 
need?
    Secretary Mnuchin. Our first choice is to have bipartisan 
legislation that allocates specific rental assistance to people 
hardest hit. But you will see rolled out after the market close 
this afternoon specific guidelines that I think you'll 
appreciate are quite significant on allowing moratoriums for 
people who certify that they can't make their rental payment 
due to coronavirus-related issues.
    Ms. Velazquez. So, are you admitting that the executive 
order put out issued by the President was basically a PR stunt?
    Secretary Mnuchin. No, quite the contrary. That executive 
order is what will roll out this afternoon. What you will see 
are very, very significant actions.
    So, yes, we do have some money. We have a couple of 
billion. But because we don't have enough money, we are rolling 
out very significant guidelines that will impact not just the 4 
million homeowners--excuse me--renters that were in 
coronavirus. This will be up to the 40 million renters in the 
United States. So, again, you'll be seeing that rolled out.
    Ms. Velazquez. So, all that money is coming out of where? 
All that money that is needed is coming out of what program?
    Secretary Mnuchin. It's actually not using money. What it 
is doing is using executive authority to create a moratorium.
    Our first choice would be to have rental assistance, were 
to have enough money. We need legislation. But since we don't 
have that, the President is using executive authority, which 
will allow for a moratorium so that people who are impacted by 
this don't get thrown out of their rental homes.
    Ms. Velazquez. So, you are telling us that you will not 
take money out of Section 8 vouchers or project-based Section 8 
properties to pay for this?
    Secretary Mnuchin. No, we're not redirecting. There's a 
small amount of money that will be rental assistance. But the 
main part of this program is a real moratorium that impacts 
close to the 40 million renters. And, again, I think everyone 
will be very pleased. But, again, that's not a reason we 
shouldn't have legislation with rental assistance.
    Ms. Velazquez. OK. So, I have spoken to several small 
businesses in my district, including restaurants, hairdressers, 
dry cleaners, who are all concerned about making September's 
rent. Many of these businesses have already taken out PPP, but 
are still in need for additional resources. In fact, 84 
businesses in the northern part of my district, Williamsburg 
and Greenpoint, since the start of the pandemic shut down their 
businesses.
    As the administration was considering an eviction 
moratorium for renters and homeowners, did you also consider 
doing the same for commercial properties?
    Secretary Mnuchin. We did, but I don't believe we have the 
executive authority to do that. And that's all the more reason 
why I think we should take the 130 billion that we have left in 
PPP, add another 120 billion, and let's get 250 billion to help 
all those businesses that you specifically identified and many 
more that can't make their rent, can't pay their payroll, no 
fault of their own. This is all COVID related.
    Ms. Velazquez. Sir, are you committed to work with me to 
make the changes that are necessary to put guardrails so that 
those businesses that are ineligible to access the PPP program 
will not be able to do so?
    Secretary Mnuchin. Absolutely. And I'd encourage your 
committee to move forward with stand-alone legislation. Let's 
get this passed on a bipartisan basis and move to the next 
issue.
    Chairman Clyburn. A very generous five minutes has expired.
    Ms. Velazquez. I yield back.
    Chairman Clyburn. Thank you.
    The chair now recognizes Mr. Foster for five minutes.
    Mr. Foster. Thank you, Mr. Chairman.
    Also thank you, Mr. Secretary, for announcing yet another 
executive order. I'd like to talk about just how well some of 
your previous executive orders are working. They tend to be 
announced with a lot of sound and fury, and then when you 
actually look at the details and the implementation, there's a 
lot less than what appeared to have been announced.
    So, for example, the lost wage assistance executive order, 
which it turns out has proven to be a very weak and unworkable 
substitute for enhanced unemployment insurance. Instead of 
agreeing to simply extend the $600 benefit, this executive 
action taken last month slashes the enhanced benefits by $200 
to $300 and does this by raiding a very limited FEMA Disaster 
Relief Fund to cover part of the cost and then forces cash-
strapped states to pick up the rest of the bill, those that 
can.
    All right. So how is this actually working? Secretary 
Mnuchin, on August 10, you said that most states would be able 
to execute this program, and I quote, ``within the next week or 
two.'' But as of Friday, only six states have started paying 
out even these reduced benefits.
    So, can you tell us today how many Americans have actually 
received these limited benefits, how many are still waiting, 
and how many may never get them at all?
    Secretary Mnuchin. I'd be happy to get back to you with the 
exact statistics. I think there's something like 26 states have 
signed up. I am not aware of how many of them are actually 
paying, but we're happy to followup with you.
    And, again, our first choice is to have legislation. This 
was an area to move forward where there was not bipartisan 
agreement to move forward with something. And, again, I think 
for the people who are getting those $300 or $400 checks right 
now that's very meaningful and it's half the country.
    Mr. Foster. I don't think half of the country is 
receiving--has received those checks at this point.
    And I just--I know the situation in Illinois where we 
diligently applied to FEMA to participate in this program, but 
our Department of Employment Security tells us that even if it 
was able to be implemented, there are a huge number of issues 
at stake.
    I don't--there are too many of them just to tick off here, 
but among them that includes the fact that under the 
President's program you don't get to access any benefits at all 
if you don't meet this arbitrary minimum weekly benefit of 
$100. And this includes about 55,000 claimants from Illinois, 
many of whom are mixed income earners who earn W-2s and work as 
self-employed workers or independent contractors.
    Also, it requires states to set up a completely parallel 
system to administer this aid, which is a huge administrative 
burden when they're very busy with other things right now.
    And, finally, it provides zero stability to workers, 
because there's only a limited amount of FEMA money that's 
available to be drawn. And the program claims to expire at the 
end of December, but we all know that that money is likely to 
be gone, if it ever gets started, within a few short weeks.
    So, first, is it really true that there's only about $44 
billion in FEMA disaster funds available to cover these 
benefits? And what do you do when that runs out?
    Secretary Mnuchin. Well, there is more FEMA money, but we 
wanted to make sure we had money for hurricanes and other 
items. So, yes, we've allocated a little over $40 billion. And 
hopefully, again, all the more reason why we need legislation 
to replenish those funds and allow people to do it. And we're 
more than happy to followup. I'm not aware of what the--the 
issues are in your state. We're more than happy to followup on 
the specifics of that.
    Mr. Foster. No, we have a very good write-up, and I'll be 
happy to get to you on that.
    The second executive action is this payroll tax deferral. 
You know, this is another one of his, sort of, not-very-well-
thought-out executive orders. So this, I understand, is a--it's 
a payroll tax holiday. So, is it the position of the 
administration that this will have to be paid back by workers, 
you know, by next April or not?
    Secretary Mnuchin. Oh, it's--it's quite clear that, again, 
the President is going to go to Congress and--to get authority, 
but we need congressional authority. This is a deferral. Again, 
we need congressional authority.
    Mr. Foster. So, the answer is yes. The workers--as it 
stands right now, unless the Senate finally passes anything, 
we're not going to--you know, workers are going to have to pay 
this back, correct?
    Secretary Mnuchin. Again, this is--this is like other tax 
deferrals that we gave which were very helpful to people. And, 
yes, this is money in people's pocket that they need now that--
that is very important and very meaningful.
    Mr. Foster. OK. And, now, how does the--the President has 
proposed various mechanisms for paying this back, including 
basically taking--defunding Social Security or--yes, Social 
Security funds to pay for it. Is this really--is this your 
plan? Is that what you're proposing?
    Secretary Mnuchin. No. That's completely inaccurate, OK. 
This is a deferral, so it will be paid back. And if we pass 
legislation, then in the legislation, this would come out of 
the general fund and make Social Security 100 percent whole. We 
have no intention of having this cost one penny out of the 
Social Security trust fund, which, I might add, I'm--I'm the 
managing trustee of.
    Mr. Foster. All right. Well, that's interesting to compare 
that with some of the statements that your boss has made.
    I guess I'm out of time here, and I'll yield back.
    Chairman Clyburn. Thank you.
    The chair now recognizes Mr. Raskin for five minutes.
    Mr. Raskin. Thank you, Mr. Chair.
    Mr. Secretary, I'm pleased to hear that you are open to 
state and local funding in the next round of legislation that 
we do, and this definitely strikes a very different tone from 
one of our colleagues, who seems to think that support for 
state and local governments is left-wing baloney. As you know, 
state and local governments provide the vast majority of 
services to our people, including fire, police, public health, 
libraries, first responders, rescue, and so on. And they've 
been on the front lines of the--of the COVID-19 crisis which, 
of course, has cost more than 180,000 American lives, and 
afflicted more than 6 million of our people.
    States and localities now face nearly $1 trillion in budget 
shortfalls, $1 trillion. My state, Maryland, is projected a 
$2.6 billion shortfall by the end of 2021, and it could be $4 
billion by 2022, and this is reflective of what's taking place 
across the country, red states, blue states, southern states, 
northern states and so on.
    The state governments are being forced to cannibalize their 
rainy-day funds, they're cutting essential services, and 
they're laying off workers. According to the Department of 
Labor, 1-1/2 million state and local government workers have 
lost their jobs since February. And the economists tell us that 
if we don't act, another 2.8 million could lose their jobs 
within the next year.
    So here is what our key economic actors and thinkers are 
saying. Fed Chairman Jerome Powell warns that state and local 
government layoffs and budget cuts will, quote, ``hold back 
economic recovery.'' Former Fed Chairs Bernanke and Yellen 
testified that state and local budget cuts and layoffs stifle 
economic recovery from the Great Recession, and those job 
losses at the state and local level were just half of what 
we've already seen during COVID-19.
    So, Secretary Mnuchin, do you agree with these three Fed 
Chairs that state and local budget cuts and layoffs will exert 
a serious drag on national economic recovery? Do we need to act 
in a way commensurate with this threat?
    Secretary Mnuchin. Well, I don't know if it's going to be a 
serious drag or not, but there's no question that the President 
and I think that we should not be having layoffs of policemen, 
firemen, first responders, and others. I think there are budget 
holes. I think the $1 trillion is way too high. That was a two-
year number. Matter of fact, if you look at The Wall Street 
Journal today, they talk about how state revenues are coming in 
significantly higher than they expected. And again, let--let's 
deal with and fund the issue we have now, and next year, we can 
worry about if more money is needed.
    Mr. Raskin. OK. That's a fair point, but I keep hearing 
this talking point that the states have a lot of money left 
over from the CARES Act, and your department published a report 
saying that the states had only spent 25 percent of the $150 
billion that we have in the coronavirus relief fund that was 
set up for the state and locals. But that was a really 
disoriented claim, because 75 percent of the CARES Act funding 
had already been allocated and obligated for expenditure. So, 
it may be true that only 25 percent of it is spent, but more 
than three-quarters of it had been obligated.
    And the report also covered spending only through June 30, 
failing to account for state spending in July and August, and 
also ignoring the fact that obligated funds weren't being spent 
yet because of the Department's own guidances and red tape.
    So, do you still assert now in September that most of the 
CARES Act money is still available to state and local 
governments?
    Secretary Mnuchin. Well, let me just say, we worked with 
our inspector general since we didn't have authority, and we 
asked the inspector general to work with us so that states 
would be reporting. We will be getting updated reports. I do 
know as a fact there are many states that are hoarding the 
money because they want to use it for lost revenues and not use 
it now. I'm not saying that's every case. There's also some 
states that did a very good job of passing it down to local 
cities and counties. There are other states that have kept the 
money.
    So, yes, I--I think there is still money available. I'm not 
sure what it is. But again, as part of a compromise, the 
President authorized Mark Meadows and I to put more money on 
the table in--in a larger deal.
    Mr. Raskin. Have you met with the National Governors 
Association or the National League of Cities, or any of the 
state and local government organizations to discuss the $1 
trillion budget shortfall, because I can assure you they see it 
very differently from the way that you're describing it today?
    Secretary Mnuchin. I've spoken to many Governors, both 
Republicans and Democrats. I've also spoken to many mayors who 
are Democrats and Republicans. I've reached out to states. I 
have specific numbers of what they need for schools and other 
issues. So yes, I've--I've also participated on many video 
calls with the Vice President and--and all the Governors. Yes, 
we've had a lot of reach-out.
    Mr. Raskin. Well, I'll just leave you with the words of 
Republican Senator Bill Cassidy who said, ``As Congress drafts 
the next round of COVID-19 spending, lawmakers are debating 
whether to give states money. We should. Without such funding, 
cities and municipalities will be forced to lay off workers and 
may, therefore, be unable to provide basic services to keep 
small-and medium-sized businesses running.'' Senator Cassidy 
warned that submitting half measures will not restart our 
economy.
    So, I hope you will pay attention to this bipartisan 
consensus that we need a substantial and meaningful investment 
in this coordinate part of the U.S. Government in the states 
and localities.
    Thank you very much. I yield back, Mr. Chairman.
    Chairman Clyburn. Thank you for yielding back.
    The chair now recognizes Mr. Kim for five minutes.
    Mr. Kim. Thank you, Mr. Chairman.
    Secretary, again, thanks--thank you for joining with us 
here today. I wanted to just go back to something you said a 
couple times earlier in this hearing, which is about--you know, 
you said a line that said, you know, on the things we can agree 
on, let's move forward, and I think that that's a great 
centimeter. I just want to focus in on a couple issues here.
    So, going back to housing, we've talked--you just talked 
about it a couple times. You said that you agree that it's 
important to support Americans with housing. You made reference 
to an announcement that will come later on today about a 
moratorium. First of all, just to be clear, you agree that a 
moratorium is not enough. Is that correct?
    Secretary Mnuchin. My first choice, as it relates to 
rentals, is rental assistance, not a moratorium. And as it 
relates to mortgages, I think, as you know, a substantial 
portion of the market is Fannie Mae and Freddie Mac, and I 
think they've created a very successful program in forbearance, 
which I support.
    Mr. Kim. So when we're looking at this question now, if we 
have agreement, that we need to have some support here for 
renters and for others, to keep a roof over our head; now the 
question is, how much and how we can provide that type of 
support. And here, I want to just drill down a little bit. When 
the Aspen Institute recognizes that we have, perhaps, the 
largest housing crisis in our country's history, they're 
saying, you know, 30 to 40 million Americans may very well be 
at risk of eviction in the next couple of months.
    That, then, would take into account in terms of calculating 
what support we can provide here. You know, when I see the 
Senate HEALS--the Senate Republicans HEALS Act put in $3.3 
billion as opposed to what, in the HEROES Act, was about $100 
billion, you said $100 billion was too much, in your opinion. 
But if you look at the $3.3 billion, let's say we use the 
conservative element of 30 million Americans, the conservative 
side which the Aspen Institute estimates. 30 million Americans, 
$3.3 billion, that's about $110 a person. So, I just kind of 
want to ask you. What is the right level? Do you think $110 a 
person is the correct amount to be able to help with rental 
assistance?
    Secretary Mnuchin. First of all, I just want to say, thank 
you for being here in person. I--I think that 30 to 40 million 
people is just absurdly high. I mean, there's--there's only 40 
million rental units. And--and I would also add, depending upon 
what we do with enhanced unemployment, has a relationship to 
what you need to spend on rental assistance. If you're giving 
people enhanced unemployment who are out of work, they can use 
some of that money to pay their rent.
    So, these things are all interrelated. But no, I think that 
30 to 40 million is grossly high in terms of estimates, and I 
think this is nothing close to what was the mortgage and 
housing crisis that we had during the recession.
    Mr. Kim. Let me just switch gears here to healthcare. So 
just a quick question: Do you think it's a good idea or a bad 
idea to have millions of Americans lose healthcare during the 
middle of a pandemic?
    Secretary Mnuchin. I--I don't think it's a good idea. 
That's one of the reasons why I support the PPP and other 
things that keep workers attached to their business so they can 
continue to get healthcare. And I think, as you know, as--as 
part of first bill that we passed with the House and the 
Senate, we allowed small businesses to maintain money for 
healthcare.
    Mr. Kim. But despite those changes, despite those efforts 
that we've had, there's been an estimate of about 5.4 million 
American workers stripped of their health insurance between 
February and May. We expect many more. And that's on top of the 
30 million Americans in our country that did not have 
healthcare to start with before this pandemic.
    So one of the big efforts that we try to do when it comes 
to the HEROES Act was to try to provide Federal financing for 
Americans to be able to keep insurance through January 31, 
2021; also, to be able to have a special enrollment period for 
coverage through the ACA. Those are some of the efforts we're 
trying to do. But when it comes to the Republican Senate bill, 
none of that is in there. So, you know, look, when you agree 
that we don't want to have Americans losing their healthcare 
during the middle of a pandemic, why is that provision--why 
aren't those provisions ones that you would agree upon?
    Secretary Mnuchin. I'm not familiar with those specific 
provisions. We'd be happy to followup with you. Again, I think 
our first choice is getting people back to work where they--
they have healthcare, but if there's areas as you've described, 
we'd be happy to--to look at that.

    Mr. Kim. I would--I would ask you to take a look at that. 
I'll have my office send it back over, but it--it's important 
here, because, again, when we're talking from the level--and 
I'll go back to what you said about trying to find areas of 
agreement and move forward on that. I want us to make sure that 
we are looking at it through the eyes of people in my district 
and people all over this country. People in my district that 
have lost healthcare, or are on the verge of losing their home, 
they don't have the luxury of just, you know, coming up with 
some of the low-hanging fruit and then kick the can down the 
road. We have to step up and have some of these tough 
discussions with each other, try to make sure that we move 
forward on this.

    I agree with you. Let's start with the areas of agreement, 
but we cannot just keep kicking the can down the road, and 
that's what the American people are seeing over and over and 
over again.

    So, again, I'm just grateful for you coming in today and 
having a chance to talk with you. I hope we can continue to 
work further.

    Mr. Chairman, just before I--I yield back here, I just have 
a unanimous consent request here. I seek unanimous consent to 
enter two documents into the record. The first is a Wall Street 
Journal article stating that major U.S. employers are 
considering significant new layoffs, and making furloughs 
permanent as the coronavirus pandemic drags on. This includes 
American Airlines, Coca-Cola, Salesforce, United Airlines, MGM, 
and many others.

    According to this article, a recent survey, quote, found--
found nearly half of U.S. employers that furloughed or laid off 
staff because of COVID-19 are considering additional workplace 
cuts in the next 12 months.

    The second document is a report from the Economic Policy 
Institute, showing that the historic layoffs from the 
coronavirus have led to approximately 12 million people being 
cutoff from employer-sponsored healthcare, health insurance, in 
the middle of a public health crisis.

    Thank you, Mr. Chairman.

    Chairman Clyburn. Thank you very much. Without objection, 
we will. And I think that that's--I was about to enter that 
in--in my final statement----

    Mr. Kim. OK.

    Chairman Clyburn [continuing]. But I guess I can skip over 
that.

    In closing this hearing, I want to thank the Secretary for 
coming today. We appreciate the opportunity to directly address 
these critical issues with you as Congress works to help our 
country get beyond this pandemic. In his two-volume work, 
Democracy in America, Alexis de Tocqueville observed the 
greatness of America lies not in being more enlightened than 
any other Nation, but rather, in her ability to repair her 
faults.

    This pandemic has exposed some faults that need to be 
repaired, including significant inequities in access to 
economic opportunity. Today's hearing has made clear that the 
Federal Government's economic recovery efforts have failed to 
repair these faults, and is at risk of getting worse.

    But before we can repair these faults, we must agree on the 
problem. I'm a bit concerned that the Secretary and I seem to 
be a bit far apart on the number of unemployed people in this 
country. You decided--you cited various numbers, 10 million, 16 
million, but the data demonstrates that as of August 8, 
approximately 27 million Americans were collecting some form of 
employment insurance. This number includes those on regular 
state jobless benefits plus freelancers, gate workers, and 
others who are not eligible for regular state jobless benefits.

    Now, to support this, I--we are entering into the record 
the statement from the Economic Policy Institute, and I think 
it supports what we are saying here today.

    I think we can all agree that there are steps Congress and 
the administration must take now to put our economy back on 
track for all Americans and ensure that taxpayers dollars are 
not diverted to waste, fraud, and abuse.

    First, congressional Republicans and the administration 
must agree on compromise legislation that includes an extension 
of enhanced unemployment insurance, food and housing assistance 
to American families, and support for state and local 
governments. Republicans continue--continuing to refuse to 
compromise is causing harm to American children, American 
workers, and American families.

    Second, Treasury must implement key relief programs, 
including the Paycheck Protection Program for small businesses, 
and the payroll support program for the airline industry, as 
Congress intended. Congress created these programs to protect 
workers and preserve American jobs, not to funnel taxpayer 
dollars to big companies and corporate executives.

    Third, and finally, Congress must immediately institute 
strong safeguards--or Treasury, I'm sorry--must immediately 
institute strong safeguards to ensure that taxpayer dollars are 
not squandered. Contrary to--Mr. Secretary, contrary to your 
previous statements, it was not inevitable or necessary for 
millions of taxpayer dollars to be diverted through waste, 
fraud, and abuse, in order to quickly get aid to those who 
needed it. Treasury must improve its oversight mechanism to 
ensure that relief funds and PPP and other programs are 
provided only to the intended recipients and that improperly 
awarded funds are promptly returned.

    Mr. Secretary, as you continue to implement the legislation 
Congress has enacted and negotiate the next legislative 
package, I urge you to remember that millions of American 
families are suffering, and are counting on us to help, 
regardless of our party or ideology.

    I hope that you will act in accordance with De 
Tocqueville's view of American greatness by working in a 
bipartisan way to repair this fault.

    I want to thank you for your testimony today. And without 
objection, all members will have five legislative days within 
which to submit additional written requests for the Secretary 
to the chair, which will be forwarded to him for his response. 
I ask him to please respond as promptly as he is able.

    With that, this hearing is adjourned.

    [Whereupon, at 3:24 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
